Office of Inspector General



December 19, 2006

MEMORANDUM

TO:            M/AA Chief Privacy Officer, Phil Heneghan

FROM:          IG/A/ITSA Director, Melinda G. Dempsey /s/

SUBJECT:       Independent Auditor’s Report on Applying Agreed-Upon Procedures for
               Assessing USAID's Implementation of Section 522 of the Consolidated
               Appropriations Act of 2005 (Report No. A-000-07-002-O)

This memorandum transmits our final report on the subject assessment for your review
and comment. (See Appendix for a discussion about this Agreed-Upon Procedures
Report.) Although this is not an audit report, we are making six recommendations, which
will be tracked in the Consolidated Audit Tracking System. Based on the supporting
documentation already provided, we consider that final action has been taken on
Recommendation No. 3 as of the date of this memorandum.

The United States Agency for International Development’s (USAID) Office of Inspector
General, Information Technology and Special Audits Division, engaged Urbach Kahn &
Werlin, LLP, to conduct an independent assessment to determine USAID’s compliance
with §522 of the Consolidated Appropriations Act of 2005. The fieldwork was conducted
at USAID’s Headquarters in Washington D.C. between September 29, 2006, and
November 20, 2006. The specific objective of the assessment was to answer the
following question:

   Did USAID develop and implement comprehensive privacy and data protection
   procedures as required by the Consolidated Appropriations Act of 2005, §522?

Enacted on December 8, 2004, Consolidated Appropriations Act of 2005 (Public Law
108-447), Division H, Title V, §522 (hereafter referred to as §522), requires that each
Agency designate a Chief Privacy Officer to assume primary responsibility for privacy
and data protection policy. The Act also requires each agency to:

   •   Establish and implement comprehensive privacy and data protection procedures
       governing the agency’s collection, use, sharing, disclosure, transfer, storage and
       security of information in an identifiable form relating to the agency employees
       and the public.

   •   Prepare a written report of its use of information in an identifiable form, along with
       its privacy and data protection policies and procedures and record it with the
       Inspector General of the agency to serve as a benchmark for the agency. Each
       report shall be signed by the agency privacy officer to verify that the agency
       intends to comply with the procedures in the report.

   •   Have an independent third-party review performed at least every two years on
       the agency’s use of information in an identifiable form.

Urbach Kahn & Werlin, LLP, determined that, although USAID has made positive strides
over the past year to address privacy related weaknesses, all of the key requirements of
the Consolidated Appropriations Act of 2005, §522, were not met. Specifically, USAID
did not:

   •   Finalize the Agency’s comprehensive privacy policies and procedures.

   •   Complete its inventory of systems that contain personally identifiable information
       and update its system of record notices to reflect the Agency’s current systems of
       records.

   •   Consistently perform and fully document its Privacy Impact Assessments.

   •   Complete its inventory of Agency-funded websites.

   •   Prepare a report of its use of information in an identifiable form along with its
       privacy and data protection policies and procedures.

   •   Implement role-based training for individuals responsible for Personally
       Identifiable Information.

These weaknesses occurred because the privacy program was not considered a priority
in years past. As a result of these weaknesses, USAID has not mitigated the risk of
privacy-related vulnerabilities and inadvertent release of information in an identifiable
form. Therefore, we are making the following recommendations, which will be included
in the Consolidated Audit Tracking System, and which will therefore require
management decisions by USAID.

       Recommendation No. 1: We recommend that USAID’s Chief Privacy Officer
       complete and finalize the revised privacy policies and procedures that
       encompass a more comprehensive approach to privacy compliance.

       Recommendation No. 2: We recommend that the USAID’s Chief Privacy Officer
       provide training and guidance on accurately completing privacy impact
       assessments to personnel responsible for conducting and preparing privacy
       impact assessments.

       Recommendation No. 3: We recommend that the system owner for the Office of
       Foreign Disaster Assistance network in conjunction with the Chief Privacy
       Officer, complete privacy impact assessments for the databases maintained on
       the Office of Foreign Disaster Assistance network.




                                                                                       2
Subsequent to the issuance of the draft report, USAID completed a privacy impact
assessment for the database on the Office of Foreign Disaster network. Based on the
supporting documentation provided to Urbach Kahn & Werlin, LLP, final action has been
reached on Recommendation No. 3 upon issuance of this report.

       Recommendation No. 4: We recommend that USAID’s Chief Privacy Officer, in
       collaboration with the Bureau for Legislative and Public Affairs/Public Information,
       Production and Online Services, assemble a complete inventory of USAID-
       funded websites.

       Recommendation No. 5: We recommend USAID’s Chief Privacy Officer
       complete the report of USAID’s use of information in an identifiable form and
       record it with the Agency’s Inspector General.

       Recommendation No. 6: We recommend that USAID’s Chief Privacy Officer
       identify specific user roles requiring role-based training and develop and
       implement an agency-wide training program regarding role-based training for
       individuals responsible for personally identifiable information.

Urbach Kahn & Werlin, LLP’s report in its entirety is attached to this report.

We request that you provide your comments to us within 30 days of the date of this
memorandum. In your comments, we request that you clearly state your position on
Recommendations Nos. 1, 2, 4, 5, and 6. If you agree with the recommendations,
please confirm your agreement and include a plan for corrective action with a target date
of completion for the planned action. If you disagree, please provide a detailed
explanation of your reason.

I appreciate the cooperation and courtesy extended to my staff and our independent
third-party contractor throughout the assessment.




                                                                                         3
                                                                               Appendix


ABOUT THIS AGREED UPON PROCEDURES REPORT
We have performed the procedures enumerated in the Consolidated Appropriations Act
of 2005, §522, which were agreed to by the United States Congress. The purpose of the
procedures was to:

   •   Measure actual privacy and data protection practices against the Agency’s
       recorded privacy and data protection procedures.

   •   Ensure compliance and consistency with both online and offline stated privacy
       and data protection policies.

   •   Provide the Agency with ongoing awareness and recommendations regarding
       privacy and data protection procedures.

   •   Ensure the Agency’s description of the use of [privacy] information in an
       identifiable form is accurate and accounts for the agency’s current technology
       and its processing of information in an identifiable form.

USAID management is responsible for developing and implementing comprehensive
privacy and data protection procedures.

This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of
the United States. The sufficiency of the procedures is the sole responsibility of the
parties specified in this report. Consequently, we make no representations regarding the
sufficiency of the procedures in the attachment for the purpose for which this report has
been requested or for any other purpose.

We were not engaged to and did not conduct an audit, the objective of which would be
the expression of an opinion on the adequacy of the controls. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.

This report is intended for the information and use of the United States Congress and
the public.




                                                                                       4
Independent Assessment of the United States Agency for International
      Development’s Compliance with §522 of the Consolidated
                    Appropriations Act of 2005




                            Final Report

                        December 11, 2006
    Independent Assessment of the U.S. Agency for International Development’s
       Compliance with §522 of the Consolidated Appropriations Act of 2005




                                            TABLE OF CONTENTS


Executive Summary ..............................................................................................1

Background...........................................................................................................2

Objective...............................................................................................................2

Scope....................................................................................................................3

Testing Methodology……………………………………………………………………3

Findings and Recommendations...........................................................................5
       Independent Assessment of U.S. Agency for International Development’s
         Compliance with §522 of the Consolidated Appropriations Act of 2005


Executive Summary

The United States Agency for International Development’s (USAID or the Agency) Office
of Inspector General (OIG), Information Technology and Special Audits Division
engaged Urbach Kahn & Werlin LLP (UKW) to conduct an independent assessment to
determine USAID’s compliance with §522 of the Consolidated Appropriations Act of
2005. The Consolidated Appropriations Act of 2005 requires that each agency
designate a Chief Privacy Officer and implement comprehensive privacy and data
protection procedures governing the agency’s collection, use, sharing, disclosure,
transfer, storage and security of information in an identifiable form relating to the agency
employees and the public. (See page 2).

The assessment concluded that USAID did not meet all of the key requirements of §522
of the Consolidated Appropriations Act of 2005. The Agency has made positive strides
over the past year to address privacy related weaknesses. However, USAID still faces
several important challenges to refine its privacy program in order to mitigate the risk of
privacy related vulnerabilities and inadvertent release of information in an identifiable
form. For example:

   •    Comprehensive privacy policies and procedures were still in draft format and had
        not yet been finalized. (See page 5).

   •    USAID did not have a complete inventory of systems that contain personally
        identifiable information and system of record notices had not been updated to
        reflect the Agency’s current systems of records. (See page 7).

   •    Privacy Impact Assessments had not been consistently performed and are not
        fully documented. (See page 8).

   •    USAID did not have a complete inventory of Agency funded websites. (See page
        9).

   •    USAID had not prepared a report of its use of information in an identifiable form
        along with its privacy and data protection policies and procedures. (See page
        12).

   •    USAID had not implemented role-based training for individuals responsible for
        personally identifiable information. (See page 12).

These weaknesses occurred because the privacy program was not considered a priority
in years past. However, USAID has recently begun to take corrective action by
appointing a Chief Privacy Officer with overall authority to develop and implement the
Agency’s privacy program in accordance with privacy laws and regulations.

This report contains six recommendations to help USAID improve its privacy program
and practices.




                                             1
       Independent Assessment of U.S. Agency for International Development’s
         Compliance with §522 of the Consolidated Appropriations Act of 2005


Background

The United States Agency for International Development (USAID) is an independent
Federal Agency responsible for conducting foreign assistance and humanitarian aid,
advancing the political and economic interests of the United States. USAID, based in
Washington, DC, operates in about 100 developing countries and provides assistance to
these countries by supporting:

   •    Economic growth, agriculture, and trade;
   •    Global health; and
   •    Democracy, conflict prevention, and humanitarian assistance.

The Consolidated Appropriations Act of 2005 (Public Law 108-447), Division H
Transportation/Treasury, Title V, §522 (hereafter referred to as §522), requires that each
Agency designate a Chief Privacy Officer to assume primary responsibility for privacy
and data protection policy. The act also requires each agency to:

   1. Establish and implement comprehensive privacy and data protection procedures
      governing the agency’s collection, use, sharing, disclosure, transfer, storage and
      security of information in an identifiable form relating to the agency employees
      and the public;
   2. Prepare a written report of its use of information in an identifiable form, along with
      its privacy and data protection policies and procedures and record it with the
      Inspector General of the agency to serve as a benchmark for the agency. Each
      report shall be signed by the agency privacy officer to verify that the agency
      intends to comply with the procedures in the report; and
   3. Have an independent third party review performed at least every two years on
      the agency’s use of information in an identifiable form.

Objective

Urbach Kahn & Werlin (UKW) was engaged by USAID’s Office of Inspector General
(OIG), Information Technology and Special Audits Division, to conduct an independent
assessment to determine USAID’s compliance with §522 of the Consolidated
Appropriations Act of 2005. As a result, the objective of this review was to answer the
following question:

   Did USAID develop and implement comprehensive privacy and data
   protection procedures as required by the Consolidated Appropriations Act of
   2005, §522?




                                            2
       Independent Assessment of U.S. Agency for International Development’s
         Compliance with §522 of the Consolidated Appropriations Act of 2005


Scope

In assessing USAID’s compliance with the requirements of §522, we evaluated the
following areas:

   •    Reviewed documentation and reports from USAID/OIG privacy audits and
        assessments;
   •    Assessed USAID’s privacy policies and procedures against existing privacy laws
        and regulations to identify gaps and inconsistencies;
   •    Analyzed two of USAID’s networks, AIDNET and Office of Foreign Disaster
        Assistance (OFDANET), and a sample of eight USAID funded websites for
        privacy vulnerabilities in accordance with §522. These privacy vulnerabilities
        include noncompliance with stated practices, policies and procedures, as well as
        risks of inadvertent release of information in an identifiable form.

The fieldwork was conducted at USAID’s Headquarters in Washington, D.C. between
September 29, 2006 and November 20, 2006.

Testing Methodology

To determine if USAID implemented the requirements of the Consolidated
Appropriations Act, §522, we reviewed privacy laws and regulations including, but not
limited to: The Consolidated Appropriations Act of 2005; Privacy Act of 1974; Office of
Management and Budget (OMB) Memorandum M-03-22, “OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act of 2002;” and OMB
Memorandum M-06-16, “Protection of Sensitive Agency Information.”

We conducted interviews with key USAID privacy personnel including the Chief Privacy
Officer/Chief Information Officer, Privacy Implementation Officer as well as
representatives of the Bureau of Legislative and Public Affairs (LPA) and Office of the
Chief Information Officer.

We obtained and reviewed USAID documents including, but not limited to:

   •    USAID’s policies related to the agency’s privacy program which include the
        Automated Directive System (ADS) 545 - Information Systems Security including
        the conforming amendments made to the policy, ADS 557- Public Information,
        ADS Chapter 508 - PRIVACY ACT – 1974, and ADS Chapter 509 - Creating,
        Altering, or Terminating a System of Records (Records Pertaining to Individuals)
   •    Privacy Impact Assessments
   •    Privacy Tips of the Day
   •    System of Records Inventory
   •    System of Records Notices (SORN)
   •    AIDNET and OFDANET System Security Documentation

We also analyzed eight USAID funded websites to identify privacy vulnerabilities. The
websites were judgmentally selected in collaboration with the OIG. For the sample of
websites, we tested the following: whether the websites were using Secure Socket
Layer (SSL) to capture and transfer Privacy Act protected user data, whether the

                                           3
       Independent Assessment of U.S. Agency for International Development’s
         Compliance with §522 of the Consolidated Appropriations Act of 2005


appropriate privacy policy and disclosures were posted and available for all visitors and
users of the websites, tested compliance with the use of tracking mechanisms, and
ensured that any personal identifiable information was protected. The websites we
selected for review included the following:

   •    http://www.eehicd.net
   •    http://www.usaidkenya.org
   •    http://www.usaidjordan.org
   •    http://ane-environment.net
   •    http://www.usaideasttimor.net
   •    http://www.usaid.gov
   •    http://africastories.usaid.gov
   •    http://www.usaidafghanistan.org




                                           4
       Independent Assessment of U.S. Agency for International Development’s
         Compliance with §522 of the Consolidated Appropriations Act of 2005


Findings and Recommendations

USAID did not meet all of the key requirements of the Consolidated Appropriations Act
of 2005, §522. These weaknesses occurred because the privacy program was not
considered a priority in years past. However, the Agency has made positive strides over
the past year to address privacy related weaknesses. For example, USAID has recently
appointed a Chief Privacy Officer with overall authority to develop and implement the
Agency’s privacy program in accordance with privacy laws and regulations. In addition,
USAID has revised the main privacy policy document, ADS 508 – USAID Privacy
Program, which provides a comprehensive set of privacy policies and procedures.
However, the new ADS 508 is currently in draft form.

USAID still faces several important challenges to refine its privacy program in order to
mitigate the risk of privacy related vulnerabilities and inadvertent release of information
in an identifiable form. For example:

   •    Comprehensive privacy policies and procedures were still in draft format and had
        not yet been finalized.

   •    USAID did not have a complete inventory of systems that contain personally
        identifiable information and system of record notices had not been updated to
        reflect the Agency’s current systems of records.

   •    Privacy Impact Assessments had not been consistently performed and are not
        fully documented.

   •    USAID did not have a complete inventory of Agency funded websites.

   •    USAID had not prepared a report of its use of information in an identifiable form
        along with its privacy and data protection policies and procedures.

   •    USAID had not implemented role-based training for individuals responsible for
        Personally Identifiable Information (PII).

These findings are further discussed below.

1. Comprehensive privacy policies and procedures were still in draft format and
   had not yet been finalized.

   According to §522 of the Consolidated Appropriations Act of 2005, within 12 months
   of enactment of the Act, each agency shall establish and implement comprehensive
   privacy and data protection procedures governing the agency’s collection, use,
   sharing, disclosure, transfer, storage and security of information in an identifiable
   form relating to the agency employees and the public. Such procedures shall be
   consistent with legal and regulatory guidance, including OMB regulations, the
   Privacy Act of 1974, and section 208 of the E-Government Act of 2002.

   During our review period, USAID had the following formally established and
   approved policies relating to the Agency’s privacy program and practices:

                                              5
     Independent Assessment of U.S. Agency for International Development’s
       Compliance with §522 of the Consolidated Appropriations Act of 2005


       •   ADS 508 – Privacy Act of 1974
       •   ADS 509 – Creating, Altering or Terminating a System of Records
       •   ADS 557 – Public Information
       •   ADS 545 – Information Security (including Conforming Amendments)

    During the course of the review, however, USAID provided a draft revision of the
    ADS 508. The draft version provided encompasses a more comprehensive
    approach to privacy compliance in comparison to the ADS 508 currently in place.
    The draft version that we reviewed replaces the old chapters and provides a clear
    definition of personal identifiable information, formal procedures for conducting
    privacy impact assessments, and incident response mechanisms in the event of
    privacy violations. Further, the new ADS 508 will reference other USAID privacy
    related policies and procedures as well as OMB privacy policy directives.

    Due to the timing and scope of the current assessment, we reviewed the finalized
    policies listed above that are currently in place. While these policies are available via
    the Automated Directives System, they are not fully referenced to each other.
    Further, the current version of USAID’s policies did not provide a clear definition of
    personally identifiable information (PII), outline formal procedures for conducting
    privacy impact assessments, or procedures for responding to privacy violations.

    USAID management is aware of the weaknesses in its privacy program. According
    to a previous audit conducted by the USAID Office of Inspector General (OIG) 1 , the
    privacy program was not considered a priority for the Agency in years past.

    Without finalizing the draft privacy policies and procedures, users will not be aware of
    USAID’s policies and procedures relating to the privacy and protection of personally
    identifiable information.

    On June 8, 2006, the Office of Inspector General issued “Audit of USAID’s
    Implementation of Key Components of a Privacy Program for its Information
    Technology Systems” (Report No. A-000-06-003-P). The report identified that
    USAID had not referenced the Agency’s privacy policies and procedures to other
    requirements in the Automated Directives System, implemented formal procedures
    to conduct privacy impact assessments, or implemented formal procedures for
    responding to privacy violations. Since these issues had been addressed during the
    OIG Privacy audit, we are not making a recommendation in these areas.

    However, we are making the following recommendation:

    Recommendation No. 1

    We recommend that USAID’s Chief Privacy Officer complete and finalize the revised
    privacy policies and procedures that encompass a more comprehensive approach to
    privacy compliance.



1
 Audit of USAID’s Implementation of Key Components of a Privacy Program for its Information
Technology Systems (Audit Report No. A-000-06-003-P, June 8, 2006)

                                              6
     Independent Assessment of U.S. Agency for International Development’s
       Compliance with §522 of the Consolidated Appropriations Act of 2005


2. USAID did not have a complete inventory of systems that contain personally
   identifiable information and system of record notices had not been updated to
   reflect the Agency’s current system of records.

    According to the Privacy Act of 1974, each Agency that maintains a system of
    records must publish notification in the Federal Register upon establishment of the
    system and revise the notice if and when a change is made. USAID could not
    provide a complete inventory of USAID information systems that contain Personally
    Identifiable Information (PII). According to the Chief Privacy Officer, the inventory is
    still being constructed.

    In addition, ADS 509, “Creating, Altering, or Terminating a System of Records
    (Records Pertaining to Individuals),” outlines the policies and essential procedures
    for the creation, alteration, or termination of a System of Records that meets the
    requirements of the Privacy Act. As reported in an OIG audit report 2 , and as
    corroborated by the fieldwork conducted in this review, USAID did not follow its
    procedures (ADS 509 “Creating, Altering, or Terminating a System of Records) to
    update its System of Records Notices (SORNs), when required. As such, the
    SORNs have not been updated to reflect the Agency’s current systems of records.
    For example, the SORNs currently published in the Federal Register, state that
    several of the systems of records are located in offices that USAID no longer
    occupies in Virginia and Washington, D.C. However, the required updates to the
    records were not made and published in the Federal Register. During our review, we
    concluded that corrective action had not been completed on the reported finding.

    According to USAID officials, the Chief Privacy Office is currently working on several
    new Systems of Records Notices including: 1) the Partner Vetting System, 2) the
    update to the Office of Security “umbrella” System of Records Notices, 3) the CISO
    Security Tips of the Day, and 4) the OFDA People Trak database. In addition, the
    Chief Privacy Office has received concurrence from the General Counsel that the
    Chief Privacy Office should reissue the existing SORNs for significantly altered
    System of Records.

    USAID management is aware of the weaknesses in its privacy program. According
    to a previous audit conducted by the USAID OIG, the privacy program was not
    considered a priority for the Agency in years past.

    As a result of not having a complete inventory of systems that contain PII and the
    lack of monitoring, updating and publishing of SORNs, the Agency and the public is
    not aware of the types of personally identifying information that USAID maintains.

    On June 8, 2006, the Office of Inspector General issued an audit report 3 that
    identified that USAID had not monitored the timely preparation and publishing of
    System of Records Notices in the Federal Register. Additionally, the following OIG
    report “Agreed Upon Procedures for Assessing USAID’s Protection of Remote use of
2
  Audit of USAID’s Implementation of Key Components of a Privacy Program for its Information
Technology Systems (Audit Report No. A-000-06-003-P, June 8, 2006)
3
  Audit of USAID’s Implementation of Key Components of a Privacy Program for its Information
Technology Systems (Audit Report No. A-000-06-003-P, June 8, 2006)

                                              7
    Independent Assessment of U.S. Agency for International Development’s
      Compliance with §522 of the Consolidated Appropriations Act of 2005


   Personally Identifiable Information and Information Systems” (Memorandum Report
   No. A-000-07-001-S, November 28, 2006) identified that USAID did not have a
   complete inventory of systems that contain personally identifiable information.
   Therefore, we are not making a recommendation in these areas since the issues
   were addressed in previous OIG audits.

3. Privacy impact assessments had not been consistently performed and are not
   fully documented.

   The E-Government Act of 2002 requires Agencies to complete Privacy Impact
   Assessments (PIA) prior to (1) developing or procuring information technology
   systems or projects that collect, maintain or disseminate information in identifiable
   form about an individual, or (2) initiating, consistent with the Paperwork Reduction
   Act, a new electronic collection of information in identifiable form for 10 or more
   persons excluding agencies, instrumentalities or employees of the federal
   government. Specifically, Agencies are required to:

      •   Conduct PIAs.
      •   Ensure the Chief Information Officer (or equivalent official) reviews the PIAs.
      •   Make the PIAs publicly available through the website of the agency,
          publication in the Federal Register, or other means.

   Our review of the AIDNET and OFDANET Privacy Impact Assessments identified
   that the PIAs have not been properly completed. USAID provided us with the PIA
   templates for AIDNET and OFDANET; however, the information documented in the
   PIA templates for AIDNET and OFDANET differ from the summary PIAs that are
   posted on the USAID website. For example, the PIA templates for AIDNET and
   OFDANET state that PII is either contained or collected. However, the PIAs posted
   to the USAID privacy program webpage state that they do not. According to USAID
   officials, the information posted to the USAID privacy program webpage is correct
   because AIDNET and OFDANET do not contain or collect PII. In addition, the PIAs
   that have been completed do not contain the date they were signed off on, the
   signatures of appropriate personnel who are authorized to sign off on the completed
   PIA, and there is incomplete information in the comments sections where comments
   and guidance are used for further clarification for PIA steps.

   Additionally, PIAs have not been completed for any of the databases maintained on
   OFDANET. These databases are: People Trak, Field Support (FST), and Disaster
   Assistance Support (DASP). We were informed by OFDANET officials that FST and
   DASP were recently discovered to be housed on OFDANET and they would
   complete PIAs for these databases.

   USAID management is aware of the weaknesses in its privacy program. According
   to a previous audit conducted by the USAID OIG, the privacy program was not
   considered a priority for the Agency in years past. The Agency has recently begun
   implementing the privacy program. In addition, personnel responsible for completing
   PIAs had not received proper training and guidance to ensure PIAs were completed
   accurately.



                                           8
    Independent Assessment of U.S. Agency for International Development’s
      Compliance with §522 of the Consolidated Appropriations Act of 2005


   Without a complete and accurate PIA, USAID will not be able to determine the risks
   and effects of collecting, maintaining and disseminating information in identifiable
   form in an information system.

   Recommendations No. 2

   We recommend that the USAID’s Chief Privacy Officer provide training and guidance
   on accurately completing privacy impact assessments to personnel responsible for
   conducting and preparing privacy impact assessments.

   Recommendation No.3

   We also recommend that the system owner for the Office of Foreign Disaster
   Assistance network in conjunction with the Chief Privacy Officer, complete privacy
   impact assessments for the databases maintained on the Office of Foreign Disaster
   Assistance network.

   (Note: Subsequent to the issuance of the draft report, OFDANET officials reported
   that they had met with Office of the Chief Information Security Officer (CISO)
   personnel regarding the completion of privacy impact assessments for the
   OFDANET databases. Upon review of the OFDANET databases, it was determined
   that a privacy impact assessment would only need to be completed for the People
   Trak database. Therefore, a privacy impact assessment, System of Record and
   Notice (SORN), and System Classification was completed for the People Trak
   database.    Based on the supporting documentation that was provided, this
   recommendation will be closed upon issuance of the final report.)

4. USAID did not have a complete inventory of Agency funded websites.

   The ADS 557 – Public Information provides the policy directives for Agency
   information distributed to the public and details how to respond to requests from the
   public for information about USAID's programs and activities. According to ADS 557,
   USAID’s Bureau for Legislative and Public Affairs is responsible for maintaining the
   Agency’s inventory of public websites. However, USAID does not have a complete
   inventory of USAID funded websites. During the course of our review, we were
   provided two separate partial website inventories. One inventory is maintained by
   the USAID’s Bureau of Legislative and Public Affairs and the second is maintained
   by the Office of the Chief Information Security Officer (CISO). However, these
   inventories have not been consolidated into one inventory.

   USAID has recently begun to compile a complete inventory of USAID funded
   websites as well as a process to monitor the websites for privacy compliance.
   According to a representative from the Bureau of Legislative and Public Affairs,
   USAID would need additional staff and funding to monitor all Agency funded
   websites.

   As a result, external USAID websites are partially in compliance with §522 of the
   Consolidated Appropriations Act of 2005, and OMB Memorandum 00-13 “Privacy
   Policies and Data Collection on Federal Web Sites.” In the course of our review, we
   noted the following conditions on the websites selected for review:

                                          9
     Independent Assessment of U.S. Agency for International Development’s
       Compliance with §522 of the Consolidated Appropriations Act of 2005



        •   Persistent Cookie – The site, http://africastories.usaid.gov, set a persistent
            cookie while reviewing the site. This cookie was set to expire in 2036, which
            is a length of time customary for such cookies. During our review of the site,
            it was determined that the cookie requested no user specific information, but
            was being used to associate specific page views. No private information was
            seen to pass between web browser and the originating site. According to
            USAID officials, there is no waiver in place to use a tracking mechanism on
            this web site.

        •   Web Bug 4 – The site associated with http://ane-environment.net appears to
            set a cookie/bug which is associated to the Google search function on the
            page.

            According to M-03-22, OMB Guidance for Implementing the Privacy
            Provisions of the E-Government Act of 2002, agencies are prohibited from
            using persistent cookies or any other means (e.g., web beacons) to track
            visitors’ activity on the Internet except as provided in subsection (b) below;
            agency heads may approve, or may authorize the heads of sub-agencies or
            senior official(s) reporting directly to the agency head to approve, the use of
            persistent tracking technology for a compelling need. When used, agency’s
            must post clear notice in the agency’s privacy policy of:

                •   the nature of the information collected;
                •   the purpose and use for the information;
                •   whether and to whom the information will be disclosed; and
                •   the privacy safeguards applied to the information collected.

        •   SSL     Keys      –    The    sites,   http://www.usaidafghanistan.org    and
            http://www.usaidkenya.org, offer Secure Socket Layer functionality to site
            users. In both cases, the keys present were un-trusted, being self-signed and
            related to other web sites. This state negates the security and trust
            relationship provided to the end-user. Because the key is not associated with
            the site of origin, the end-user cannot establish the authenticity of the key.
            According to National Institute of Standards and Technology (NIST) Special
            Publications 800-44, Guidelines on Securing Public Web Servers, “without
            some process to authenticate the server, users of the public Web server will
            not be able to determine if the server is the “authentic” Web server or a
            counterfeit version operated by a malicious entity.”

        •   User Information – It was possible to find information regarding program
            participants by following a link off the http://ane-environment.net site. This
            information included program participants and personal contact information.



4
 A Web bug is a graphic on a Web page designed to monitor who is reading the page or
message. Web bugs are often invisible because they are typically only 1-by-1 pixels in size. In
many cases, Web bugs are placed on Web pages by third parties interested in collecting data
about visitors to those pages.

                                               10
 Independent Assessment of U.S. Agency for International Development’s
   Compliance with §522 of the Consolidated Appropriations Act of 2005


   •   Administrative Information – It was possible to view potential private and
       system administrative information by following a link off the
       http://www.eehicd.net site to a training contractor,
       http://egypt.usaidtraining.devis.com.

   •   Site Warning Banner – Four of eight websites tested; http://www.eehicd.net,
       http://www.usaidkenya.org, http://www.usaidjordan.org, and
       http://www.usaideasttimor.net do not warn visitors that they are leaving the
       site when activating an on-site link. According to Technical Regulations for
       AID/Washington external website pages per the Xweb guidance, all links to
       sites not residing on a .gov server must utilize the "Goodbye" script.

   •   Privacy Notice – The site, http://www.usaideasttimor.net, lacked a privacy
       notice link on the ‘Contact Us’ page. It is noted this is the only page on which
       data can be entered.

   •   Domain Registry – Of the eight websites reviewed, the following six
       websites are listed on non-.gov domains:
          • http://www.eehicd.net;
          • http://www.usaidkenya.org;
          • http://www.usaidjordan.org;
          • http://ane-environment.net;
          • http://www.usaideasttimor.net;
          • http://www.usaidafghanistan.org.

       However, the following four websites also exist on the .gov domain:
         • http://www.usaidkenya.org;
         • http://www.usaidjordan.org;
         • http://www.usaideasttimor.net;
         • http://www.usaidafghanistan.org.

However, when trying to access the http://kenya.usaid.gov website, located on the
.gov domain, the website does not allow a connection to be established.

The ADS 557 states the following, “In accordance with the OMB Memorandum 05-
04, “Policies for Federal Agency Public Websites,” as of December 31, 2005, web
pages containing official U.S. Government information or which conduct transactions
or other business related actions on behalf of the Agency must reside on .gov
domains.”

The lack of monitoring of Agency funded websites coupled with existent
configurations on the web servers may result in the unintentional disclosure of
information by web site users or USAID employees.

On June 8, 2006, the Office of Inspector General issued “Audit of USAID’s
Implementation of Key Components of a Privacy Program for its Information
Technology Systems” (Report No. A-000-06-003-P). The report identified that
USAID had not established and implemented a formal process to monitor agency
funded websites to ensure the privacy of website users was protected. Since this

                                       11
    Independent Assessment of U.S. Agency for International Development’s
      Compliance with §522 of the Consolidated Appropriations Act of 2005


   issue had been addressed during the OIG Privacy audit, we are not making a
   recommendation in this area.

   However, we are making the following recommendation:

   Recommendation No.4

   We recommend that USAID’s Chief Privacy Officer, in collaboration with Bureau for
   Legislative and Public Affairs/Public Information, Production and Online Services,
   assemble a complete inventory of USAID funded websites.

5. USAID had not prepared a report of its use of information in an identifiable
   form along with its privacy and data protection policies and procedures.

   §522 of the Consolidated Appropriations Act of 2005 requires each agency to
   prepare a written report of its use of information in an identifiable form, along with its
   privacy and data protection policies and procedures and record it with the Inspector
   General of the agency to serve as a benchmark for the agency. Each report is
   required to be signed by the agency privacy officer to verify that the agency intends
   to comply with the procedures in the report. However, USAID has not prepared a
   report of its use of information in an identifiable form along with its privacy and data
   protection policies and procedures because the Agency has recently appointed a
   Chief Privacy Officer to ensure that privacy laws and regulations are adhered to.

   The Agency’s Inspector General provides oversight to ensure that USAID is in
   compliance with Federal requirements. Without a written report, it is difficult for the
   Inspector General to assess the status of the privacy program and ensure that
   requirements of §522 are met.

   Recommendation No.5

   We recommend USAID’s Chief Privacy Officer complete the report of USAID’s use of
   information in an identifiable form and record it with the Agency’s Inspector General.

6. USAID had not implemented role-based training for individuals responsible for
   personally identifiable information.

   The ADS 545 Conforming Amendments requires that the Agency establish and
   provide annual Privacy Awareness training to all staff that use PII in routine
   performance of their duties. For individuals who have additional responsibility for PII,
   the Agency must provide role-based training. USAID has incorporated privacy
   related tips into their “Tips of the Day” security awareness program. However, role-
   based training has not been implemented for individuals responsible for PII. In
   addition, specific user roles have not been identified to receive role-based training.
   According to USAID officials, these roles will be outlined in the new ADS 508 and
   training will coincide with the release of ADS Chapter 508 and the new release of
   Tips of the Day.




                                            12
 Independent Assessment of U.S. Agency for International Development’s
   Compliance with §522 of the Consolidated Appropriations Act of 2005


Without proper privacy training, users may not be properly informed of the
importance of information they handle and the legal and business reasons for
maintaining its integrity and confidentiality.

Recommendation No.6

We recommend that USAID’s Chief Privacy Officer identify specific user roles
requiring role-based training and develop and implement an agency-wide training
program regarding role based training for individuals responsible for personally
identifiable information.




                                    13
